United States v. Koech, 992 F.3d 686 (2021)

Appendix A

992 F.3d 686
United States Court of Appeals, Eighth Circuit.
UNITED STATES of America, Plaintiff - Appellee
v.
Amos Kiprop KOECH, Defendant - Appellant

West Headnotes (8)
[1]

Constitutional Law
children

Sex offenses against

Human Trafficking and Slavery
Enact; Validity

No. 19-2906
|
Submitted: October 23, 2020
|
Filed: March 26, 2021

Infants

Power to

Crimes against children

Statute prohibiting commercial sex trafficking
of children, which relieved the government
of its burden of proving the victim's age if
the defendant had a reasonable opportunity to
observe the victim, was not void for vagueness,
as applied to defendant; defendant had multiple
encounters with the 15-year-old victim, both
clothed and unclothed, the victim told defendant
she was 18 years old and defendant stated she
was “too beautiful to be 18,” after his arrest
defendant told police “if a girl says she's 18”
she is really “two years minus, that's 16,” and
defendant took nude pictures of the victim and
later deleted them because he thought they

Synopsis
Background: After defendant's motion to dismiss charges
of commercial sex trafficking of a minor and conspiracy to
commit commercial sex trafficking of a minor was denied,
2018 WL 4907622, he filed objections. The United States
District Court for the District of Minnesota, 2018 WL
4905602, Donovan W. Frank, Senior District Judge, adopted
the report and recommendation and affirmed. Defendant
appealed.

could be considered child pornography.
Holdings: The Court of Appeals, Loken, Circuit Judge, held
that:
[1] commercial sex trafficking of children statute that relieved
the government of its burden of proving the victim's age if the
defendant had a reasonable opportunity to observe the victim
was not void for vagueness;
[2] jury instruction on the element of commercial sex
trafficking of a minor that required the government to prove
the defendant's sex trafficking was “in or affecting interstate
or foreign commerce” was proper; and
[3] evidence was sufficient to establish defendant's actions
were in or affecting interstate commerce.

[2]

18

U.S.C.A. §§ 1591(a),

1591(c).

Constitutional Law
as applied

Vagueness on face or

A plaintiff who engages in some conduct that
is clearly proscribed cannot complain of the
vagueness of the law as applied to the conduct of
others.

[3]

Commerce
Prosecutions

Federal Offenses and

Human Trafficking and
Slavery
Instructions

Affirmed.

Infants
Indecent exhibition or use of child;
child prostitution

Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection.

Trial court jury instruction on the element
of commercial sex trafficking of a minor
that required the government to prove the
defendant's sex trafficking was “in or affecting
interstate or foreign commerce” was proper, even

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 1

1

United States v. Koech, 992 F.3d 686 (2021)

as required to support conviction for commercial
sex trafficking of a minor; the victim testified
that defendant paid codefendant to engage in sex
acts with her, each time codefendant immediately
took her across state lines to purchase drugs, and
codefendant advertised her on the internet, and
defendant and codefendant communicated by
text messages and phone calls using defendant's

though instruction did not require the jury to
find that defendant's conduct had an “actual”
effect on interstate commerce; the instruction
correctly stated that the government must
prove defendant's conduct “affected” interstate
commerce but need not prove defendant knew
18
he was affecting interstate commerce.
U.S.C.A. § 1591(a)(1); U.S.C.A. Const. Art. I §
8, cl. 3.

[4]

Criminal Law
Construction and Effect of
Charge as a Whole
Criminal Law

Instructions

Court of Appeals reviews challenge to district
court's jury instructions for abuse of discretion
and will affirm if instructions, taken as whole,
fairly and adequately submitted issues to jury.

[5]

Commerce

Commerce among the states

Commerce
commerce

Activities affecting interstate

The Commerce Clause authorizes Congress to
regulate: (1) the channels of interstate commerce,
(2) the instrumentalities of interstate commerce,
or (3) activities that substantially affect interstate
commerce. U.S.C.A. Const. Art. I § 8, cl. 3.

[6]

Commerce
commerce

Activities affecting interstate

Congress may regulate purely local activities that
are part of an economic class of activities that
have a substantial effect on interstate commerce.
U.S.C.A. Const. Art. I § 8, cl. 3.

[7]

Commerce
Prosecutions

[8]

Commerce
internet

18 U.S.C.A. §

Telecommunications and

When a statute punishes those who use
an instrumentality of interstate commerce to
commit the prohibited act, the use of telephones,
even when used intrastate, satisfies the interstate
commerce element of the statute.

*687 Appeal from United States District Court for the
District of Minnesota
Attorneys and Law Firms
Counsel who presented argument on behalf of the appellant
and appeared on the brief was Douglas Olson, AFPD, of
Minneapolis, MN. The following attorney also appeared on
the appellant brief: Eric Riensche, AFPD, of Minneapolis,
MN.
Counsel who presented argument on behalf of the appellee
and appeared on the brief was Chelsea Walcker, AUSA,
of Minneapolis, MN. The following attorney also appeared
on the appellee brief: Laura M. Provinzino, AUSA, of
Minneapolis, MN.
Before SMITH, Chief Judge, LOKEN and GRUENDER,
Circuit Judges.

Federal Offenses and

Human Trafficking and Slavery
servitude; sex trafficking

Chinese-made cell phone.
1591(a)(1).

Sexual

Infants
Indecent exhibition or use of child;
child prostitution
Evidence was sufficient to establish defendant's
actions were in or affecting interstate commerce,

Opinion
LOKEN, Circuit Judge.
A jury convicted Amos Koech of commercial sex trafficking
of a minor in violation of
18 U.S.C. § 1591(a) and
conspiring to commit that offense in violation of § 1594(c).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 2

2

United States v. Koech, 992 F.3d 686 (2021)

The substantive count was based on proof that Koech paid
codefendant Andre Mathis $60 to have sex with fifteen-yearold C.D. in late June 2017. The district court 1 sentenced
Koech to 130 *688 months imprisonment. He appeals his
conviction, arguing (1) the phrase “reasonable opportunity to
observe” in
§ 1591(c) is unconstitutionally vague, (2) the
district court improperly instructed the jury on the interstate
commerce element of these sex trafficking offenses, and
(3) the evidence was insufficient to prove that his conduct
affected interstate commerce. We affirm.
1

The Honorable Donovan W. Frank, United States
District Judge for the District of Minnesota.

I. The Vagueness Issue
[1] After indictment, Koech moved to dismiss, arguing
18
the phrase “reasonable opportunity to observe” in
U.S.C. § 1591(c) is void for vagueness. Adopting the
magistrate judge's 2 report and recommendation, the district
§ 1591(c) is not unconstitutionally
court concluded that
vague “because ‘reasonable opportunity to observe’ would
‘provide a person of ordinary intelligence fair notice of what
is prohibited,’ is subject to common understanding, and is
typical of standards that juries are asked to consider,” quoting
United States v. Paul, 885 F.3d 1099, 1105 (8th Cir.), cert.
denied, ––– U.S. ––––, 139 S. Ct. 290, 202 L.Ed.2d 190
(2018). On appeal, Koech argues the district court erred and
therefore “the convictions must be vacated as constitutionally
infirm.”
2

The Honorable Leo I. Brisbois, United States
Magistrate Judge for the District of Minnesota.
Section 1591(a) provides in relevant part:

Whoever knowingly -- (1) in
or affecting interstate or foreign
commerce ... recruits, entices,
harbors, transports, provides, obtains,
advertises, maintains, patronizes, or
solicits ... a person ... knowing, or ... in
reckless disregard of the fact ... that the
person has not attained the age of 18
years and will be caused to engage in a

commercial sex act, shall be punished
as provided in subsection (b).

Section 1591(c) provides that “[i]n a prosecution under
subsection (a)(1) in which the defendant had a reasonable
opportunity to observe the person so ... obtained ... the
Government need not prove that the defendant knew, or
recklessly disregarded the fact, that the person had not
attained the age of 18 years.”
Section 1591(c) does not make

§ 1591 a strict liability

§ 1591(a) includes another
criminal offense because
traditional scienter requirement -- that the offender must know
or recklessly disregard the fact that the victim “will be caused
to engage in a commercial sex act.” However,
§ 1591(c)
does alter the mens rea requirement regarding the victim's
age. Congress adopted this amendment to reflect the Supreme
Court's recognition that “the perpetrator [who] confronts the
underage victim personally ... may reasonably be required to
ascertain that victim's age.”
United States v. X-Citement
Video, Inc., 513 U.S. 64, 72 n.2, 115 S.Ct. 464, 130 L.Ed.2d
372 (1994). See generally United States v. Whyte, 928 F.3d
1317, 1328-31 (11th Cir. 2019), cert. denied, ––– U.S. ––––,
140 S. Ct. 875, 205 L.Ed.2d 497 (2020); United States v.
Copeland, 820 F.3d 809, 813-14 (5th Cir.), cert. denied, –––
U.S. ––––, 136 S. Ct. 2531, 195 L.Ed.2d 857 (2016).
[2] Koech argues that the phrase “reasonable opportunity
to observe” is unconstitutionally vague because it has no
ascertainable application or meaning, and fails to give notice
of the conduct it punishes. In reviewing this contention, we
must begin with a well-established principle: “A plaintiff who
engages in some conduct that is clearly proscribed cannot
complain of the vagueness of the law as applied to the *689
conduct of others.” United States v. Cook, 782 F.3d 983,
987 (8th Cir.), cert. denied, 577 U.S. 906, 136 S.Ct. 262,
193 L.Ed.2d 193 (2015), quoting
Holder v. Humanitarian
L. Project, 561 U.S. 1, 18, 130 S.Ct. 2705, 177 L.Ed.2d
355 (2010). Thus, we must consider whether
§ 1591(c)
is vague as applied to the facts of this case. If Koech had
an objectively reasonable opportunity to observe C.D., “[his]
vagueness challenge to
F.3d at 1331; see

section 1591(c) fails.” Whyte, 928

United States v. Washam, 312 F.3d 926,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 3

3

United States v. Koech, 992 F.3d 686 (2021)

930 (8th Cir. 2002). So we begin with a review of the evidence
at trial from this perspective.
The evidence at trial -- which included C.D.’s lengthy direct
testimony and cross examination -- established that, in June
2017, Mathis and a friend picked up C.D. and her seventeenyear-old friend, who were then living at a home for sexuallyexploited children, and took them to Mathis's apartment in
Duluth, Minnesota. The men plied the girls with drugs and
engaged in group sex. The next morning, Mathis proposed
that C.D. engage in commercial sex for his benefit. Over the
next three weeks, Mathis “trained” C.D. to perform properly
for customers. He supplied drugs, committed repeated sexual
and physical abuse, took nude pictures of C.D., and advertised
her on Facebook.
A co-worker introduced Koech to Mathis, who began visiting
Koech at his apartment in Duluth. One evening, Mathis
brought C.D. and her friend to Koech's apartment. During this
first encounter, Mathis told Koech that C.D. was eighteen.
Koech viewed and touched her while the two men discussed
the price for C.D.’s sexual services. Mathis set the price at
$150. Koech said he did not have enough money. They agreed
Mathis and C.D. would return after Koech's next payday.
Koech and Mathis exchanged text messages and phone calls,
haggling over the price for C.D.’s services before agreeing
on $60. On June 26, Mathis and C.D. returned to Koech's
apartment. Koech and C.D. drank beer and smoked synthetic
marijuana. After Koech paid Mathis, C.D. and Koech went to
his bedroom, where Koech told C.D. she was “too beautiful
to be eighteen.” C.D. replied that she was eighteen, as Mathis
had instructed, but she thought Koech did not believe her.
They engaged in oral sex and attempted vaginal sex. Koech
touched her breasts and genitals, and took nude pictures of her
with his cell phone. C.D. left after forty-five minutes.
C.D. further testified that she and Mathis returned to
Koech's apartment about three days later, and she and
Koech engaged in vaginal intercourse for fifteen minutes
before she and Mathis left. There was no confirming
evidence of this third encounter, like the texts, phone calls,
and pictures corroborating the second encounter. Defense
counsel vigorously cross examined C.D. about her subsequent
inconsistent statements to law enforcement officers and
argued to the jury that she fabricated the third encounter,
making her entire testimony not credible. The jury obviously
rejected this argument. C.D. estimated that in her three visits
to Koech's apartment, she spent up to seven hours in his
presence. She testified Koech never inquired about her age.

On July 7, officers conducting a probation sweep of Mathis's
apartment found C.D. hiding in a closet. In Mathis's presence,
she gave a false name and said she was eighteen but provided
information that quickly revealed her identity. The officers
took C.D. to the Duluth police station where she told Officer
Derek Pemrick that Mathis had forced her to engage in sex
acts with Koech in exchange for money.
Pemrick then conducted multiple video-recorded interviews
of Koech. He claimed *690 the only money he ever paid
Mathis was $60 for a Bluetooth speaker. A warrant search
of his cell phone, manufactured in China, revealed extensive
calls and text messages between Koech and Mathis that
included negotiating for sex acts between C.D. and Koech.
Forensic analysis of the phone recovered nude images of C.D.
Koech deleted the day of Pemrick's interview. Subsequently,
Koech admitted Mathis twice visited his apartment, bringing
two girls the first time and one the second time. He said
one girl was nineteen and the other (C.D.) was eighteen but
admitted that “if a girl says she's eighteen ... two years minus,
that's sixteen.” He said the meetings were initiated by text
messages with Mathis. He denied having sex with either
girl but eventually admitted he touched one girl's breasts
and stomach and attempted to have sex with her. He also
admitted paying Mathis $60 but insisted it was for a speaker,
not sex. During a third interview, Koech admitted having
sexual contact with C.D. and recording her dressing after they
engaged in sexual acts. He said he deleted the pictures because
he was “scared of ... being charged with child pornography or
something like that.”
The jury was instructed that Koech could be convicted of the
age element of a
§ 1591(a) offense if it found beyond a
reasonable doubt “that the defendant knew or was in reckless
disregard of the fact that [C.D.] had not attained the age of
18 or had a reasonable opportunity to observe that she had
not attained the age of 18 years.” In closing argument, the
government argued, without objection:

And whether you find that the
Defendant knew that she was under 18
or he recklessly disregarded ... or had a
reasonable opportunity to observe that
[C.D.] was under 18, and I submit there

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 4

4

United States v. Koech, 992 F.3d 686 (2021)

was evidence of all of those. Any will
do.

The above summarized evidence -- Koech's multiple
encounters with C.D., clothed and unclothed; his comments
to C.D. and law enforcement about her age; the nude pictures
he took of C.D. at the time that he later deleted because they
could be child pornography -- demonstrate that Koech had a
reasonable opportunity to observe C.D. Accordingly, Koech
engaged in conduct that is clearly proscribed and “cannot
complain of the vagueness of the law.” Cook, 782 F.3d at
987; cf.
United States v. Blake, 868 F.3d 960, 976 (11th
Cir. 2017), cert. denied, ––– U.S. ––––, 138 S. Ct. 1580, 200
L.Ed.2d 767 (2018).
In addition, we agree with the district court (and other
courts) that the term reasonable opportunity to observe
“provide[s] a person of ordinary intelligence fair notice of
what is prohibited, is subject to common understanding, and
is typical of standards that juries are asked to consider.” See
United States v. Mozie, 752 F.3d 1271, 1283 (11th Cir.
2014) (“reckless disregard” and “reasonable opportunity to
observe” are “familiar legal concepts ... in defining proscribed
conduct”), abrogated by statute on other grounds, Whyte,
928 F.3d at 1331. “Condemned to the use of words, we
can never expect mathematical certainty from our language.”
Grayned v. City of Rockford, 408 U.S. 104, 110, 92
S.Ct. 2294, 33 L.Ed.2d 222 (1972). But “[a] person of
ordinary intelligence would also reasonably understand that ...
participation in a commercial sex trafficking venture could
result in criminal culpability.” Cook, 782 F.3d at 989-90. By

sex trafficking was “in or affecting interstate or foreign
commerce.” First, he argues the district court abused its
discretion by declining to adopt his proposed jury instruction
and instead giving an instruction that did not require the jury
to find that his conduct had an “actual” effect on interstate
commerce, thereby denying him this defense. We review a
challenge to the district court's jury instructions for abuse
of discretion and “will affirm if the instructions, taken as a
whole, fairly and adequately submitted the issues to the jury.”
United States v. Collier, 932 F.3d 1067, 1076 (8th Cir.
2019) (quotation omitted). 3
3

Koech argues the standard of review is de novo
because the jury instruction denied him a defense.
United States v. Bruguier, 735 F.3d 754,
See
757 (8th Cir. 2013) (en banc). This contention is
without merit. The challenged instruction did not
omit this element of the offense, and Koech in
fact argued his interstate commerce “defense” at
closing.

[5]
[6] The Commerce Clause authorizes Congress to
regulate: (i) “the channels of interstate commerce,” (ii) “the
instrumentalities of interstate commerce,” or (iii) “activities
that substantially affect interstate commerce.”
Gonzales
v. Raich, 545 U.S. 1, 16-17, 125 S.Ct. 2195, 162 L.Ed.2d 1
(2005). Congress may “regulate purely local activities that are
part of an economic class of activities that have a substantial
effect on interstate commerce.” If a federal criminal statute
prohibits a class of activities that “bears a substantial relation
to commerce, the de minimis character of individual instances
arising under that statute is of no consequence.”

Id. at 17,

its plain terms,
§ 1591(c) does not delineate prohibited
acts, it rationally modifies how the government may prove

125 S.Ct. 2195 (quotation omitted); see
United States v.
Lopez, 514 U.S. 549, 560, 115 S.Ct. 1624, 131 L.Ed.2d 626

§ 1591(a)(1)’s mens rea requirements when the defendant
had a reasonable opportunity to observe the age of his sex

(1995); United States v. Mann, 701 F.3d 274, 294-295 (8th
Cir. 2012), cert. denied, 571 U.S. 973, 134 S.Ct. 470, 187
L.Ed.2d 316 (2013).

trafficking victim. See
United States v. White, 882 F.2d
250, 252 (7th Cir. 1989) (“It is enough that he knows *691
that what he is about to do is probably or certainly criminal.”).

II. Interstate Commerce Issues
[3]

[4] On appeal, Koech raises two issues relating to

the element of a
§ 1591(a)(1) offense that requires
the government to prove that the defendant's commercial

In the Trafficking Victims Protection Act of 2000, which
included
18 U.S.C. § 1591, Congress declared that
human trafficking “substantially affects interstate and foreign
commerce.” § 102, codified at 22 U.S.C. § 7101(b)(12).
“[W]hen Congress uses the language ‘affecting interstate
commerce,’ as it did in [ § 1591(a)(1) of] the TVPA,
Congress generally intends to regulate to the outer limits of
its authority under the Commerce Clause.” United States v.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 5

5

United States v. Koech, 992 F.3d 686 (2021)

Walls, 784 F.3d 543, 546 (9th Cir.), cert. denied, 577 U.S. 894,
136 S.Ct. 226, 193 L.Ed.2d 170 (2015), citing Circuit City
Stores, Inc. v. Adams, 532 U.S. 105, 115, 121 S.Ct. 1302, 149
L.Ed.2d 234 (2001).
At trial, defense counsel proposed that the jury be instructed,
“You must decide whether the defendant's conduct had an
actual effect on interstate commerce, which can be minimal.
However, the defendant's effect on interstate commerce must
be actual, and not merely probable or potential.” Instead, the
court gave the following instruction regarding the interstate
commerce element of Count 2, the substantive sex trafficking
offense:
Acts and transactions which are economic in nature and
cross state lines are “in” interstate commerce. Transporting
people across state lines for a commercial purpose is
interstate commerce.
Acts and transactions which are economic in nature
and affect the flow of money in the stream of
commerce to any degree, however minimal, “affect”
*692 interstate commerce. To show that the defendant's
conduct affected interstate commerce, it is not necessary
for the government to prove that the defendant
specifically knew or intended that the recruiting, enticing,
harboring, transporting, providing, obtaining, maintaining,
patronizing, or soliciting of a person to engage in
commercial sex acts in which the defendant knowingly
participated would affect interstate commerce; it is only
necessary that the natural consequences of such conduct
would be to affect interstate commerce in some way, even
if minor.
If you find beyond a reasonable doubt that the defendant's
recruitment, enticement, harboring, transportation,
providing, obtaining, maintaining, patronizing, or
soliciting of [C.D.] for the purpose of engaging in
commercial sex acts was “in or affecting interstate
commerce,” to any degree, however minimal, you may find
the third element ... has been satisfied. If you do not so find,
then this element has not been established.
Koech argues this instruction allowed the jury to convict him
based on the possible, rather than the actual, effects of his
actions on interstate commerce. He argues that our decisions
in
and

United States v. Williams, 308 F.3d 833 (8th Cir. 2002),
United States v. Evans, 272 F.3d 1069 (8th Cir. 2001),

cert. denied,
537 U.S. 857, 123 S.Ct. 221, 154 L.Ed.2d
93 (2002), establish that a jury instruction that relieves the
government of proving an actual effect is “grave” error.
(In
Williams and
Evans, we affirmed the convictions,
concluding the instruction errors were harmless error or not
plain error.)
We can agree with Koech that Congress's use of “affecting”
in

§ 1591(a)(1), like the use of “affects” in the Hobbs Act,
18 U.S.C. § 1951(a), and in the money laundering statute,

18 U.S.C. § 1956(c)(4), “suggests that there must be
evidence of an actual rather than potential effect on interstate
commerce.”

Williams, 308 F.3d at 838 (

18 U.S.C. §

Evans, 272 F.3d at 1081. But there is no one
1951(a)); see
formulation that must be used to reflect this concept. Rather,
our deferential review of this issue is only to determine
whether the district court abused its discretion by instructing
the jury that the government need only prove a potential or
hypothetical effect on interstate commerce.
We conclude the district court's above-quoted instruction
satisfies this standard of review. It correctly stated that the
government must prove Koech's conduct “affected” interstate
commerce but need not prove Koech knew he was affecting
interstate commerce. See

Collier, 932 F.3d at 1075 &

n.4 (joining other circuits in concluding that
§ 1591(a)
(1) imposes no mens rea requirement on the interstate
commerce element). The instruction did not include the
specific statement the Fifth Circuit concluded would be error
if taken out of context in
United States v. Anderson,
560 F.3d 275, 278-79 (5th Cir. 2009): “It is not necessary
for the Government to show ... that commerce was actually
affected.” That was the specific statement we held was
error in
Williams, 308 F.3d at 837-38, and in
Evans,
272 F.3d at 1081. Here, the instruction instead paraphrased
the sentence in
Anderson that gave the total instruction
a proper context: “it is only necessary that the natural
consequences of such conduct would be to affect interstate
commerce in some way, even if minor.” That sentence,
which was quoted without criticism in
Evans, accurately
reflected a governing constitutional principle -- Congress may
“regulate purely local activities that are part of an economic
‘class of activities’ that have a substantial effect on interstate
commerce.”

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 6

6

United States v. Koech, 992 F.3d 686 (2021)

*693 [7] Second, Koech argues the government failed
to present sufficient evidence that his actions were “in or
affecting” interstate commerce because his involvement was
limited to a single $60 transaction, the parties lived within
walking distance of each other in Duluth, and there was
no interstate travel involved in his alleged sex trafficking.
This summary views the trial evidence most favorably to
Koech. But we must review the sufficiency of the evidence
“de novo, viewing evidence in the light most favorable to
the jury's verdict, resolving conflicts in the government's
favor, and accepting all reasonable inferences that the support
the verdict. Reversal is merited only where no reasonable
jury could find all the crime's elements beyond a reasonable
doubt.”

Paul, 885 F.3d at 1101-02 (cleaned up).

C.D. testified that Koech paid Mathis for her sex acts on two
occasions, not one, and each time she and Mathis immediately
took Koech's payment to buy drugs in Superior, Wisconsin.
In addition, C.D. testified that Mathis advertised her on
the internet, evidence of an interstate commerce nexus. See
United States v. Brinson, 772 F.3d 1314, 1325-26 (10th Cir.
2014); United States v. Phea, 755 F.3d 255, 263 (5th Cir.),
cert. denied, 574 U.S. 965, 135 S.Ct. 416, 190 L.Ed.2d 302
(2014). Koech asserts there was no evidence linking him
to these Mathis activities, but the jury convicted Koech of

use and the prohibited economic activity, an issue we need
not decide, the use of phones, text messages, and internet
advertising is evidence of the requisite effect on interstate
commerce in a
§ 1591(a) prosecution. See
United
States v. Baston, 818 F.3d 651, 664 (11th Cir. 2016), cert.
denied, ––– U.S. ––––, 137 S. Ct. 850, 197 L.Ed.2d 478
United States v. Willoughby, 742 F.3d 229, 240
(2017);
(6th Cir. 2014) (use of Chinese-made cell phone was evidence
of the interstate commerce element).
The district court instructed the jury, without objection:

In determining whether the defendant's
conduct was “in or affecting
interstate commerce,” you may
consider whether the defendant used
means or facilities of interstate
commerce, such as telephones, the
Internet or hotels that serviced
interstate travelers, or whether the
defendant's conduct substantially
affected interstate commerce by virtue
of the fact that the defendant purchased
items that have moved in interstate
commerce.

conspiring with Mathis to violate
§ 1591(a)(1). It was
entitled to view the evidence differently.
[8] Of equal or greater significance, there was overwhelming
evidence that Koech and Mathis communicated by text
messages and phone calls using Koech's Chinese-made
cell phone. When a statute punishes those who use
an instrumentality of interstate commerce to commit the
prohibited act, the use of telephones, “even when used
intrastate,” satisfies the interstate commerce element. United
States v. Corum, 362 F.3d 489, 493 (8th Cir. 2004), cert.
denied, 543 U.S. 1056, 125 S.Ct. 865, 160 L.Ed.2d 781
(2005); see United States v. Evans, 476 F.3d 1176, 1180-81
(11th Cir.), cert. denied, 552 U.S. 878, 128 S.Ct. 193, 169
L.Ed.2d 130 (2007). The commerce element in
§ 1591(a)
(1) is conduct “in or affecting interstate commerce,” not use
of an instrumentality of interstate commerce. But even if that
difference requires a greater showing of nexus between phone

End of Document

The government presented evidence that Koech used text
messages and a Verizon cell phone manufactured in China
to negotiate the price for obtaining C.D.’s commercial sex
acts. Based on this and the extensive evidence of the
conspirators’ overall sex trafficking activities, we conclude
*694 the evidence was sufficient for a reasonable jury to
reject Koech's attempt to frame his offenses as a “purely local
transaction within the confines of Duluth,” and to find that
§
the government proved the jurisdictional element of the
1591(a)(1) and § 1594(c) offenses beyond a reasonable doubt.
The judgment of the district court is affirmed.
All Citations
992 F.3d 686

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

App. 7

7

